DODIG-2012-048                           February 1, 2012




      Implementation and Reporting of the American
   Recovery and Reinvestment Act of 2009: Government
    Controls Over Selected Near Term Energy-Efficient
      Technologies Projects Were Generally Effective
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:



                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACC                           U.S. Army Contracting Command
AFRL                          Air Force Research Laboratory
COR                           Contracting Officer Representative
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DFAS                          Defense Finance and Accounting Services
FAR                           Federal Acquisition Regulation
FPDS                          Federal Procurement Data System
GE                            General Electric
NTEET                         Near Term Energy-Efficient Technologies
NAVAIR                        U.S. Navy Naval Air Systems Command
NAICS                         North American Industry Classification System
OCRA                          Online Registration and Certification Application
OMB                           Office of Management and Budget
QASPs                         Quality Assurance Surveillance Plans
SBA                           Small Business Administration
SBIR                          Small Business Innovation Research
TARDEC                        U.S. Army Tank and Automotive Research and Development
                              Engineering Center
UAV                           Unmanned Aerial Vehicle
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500
                                                                               February 1, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE RESEARCH ANP ENGINEERING
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               NAVAL INSPECTOR GENERAL       .
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Implementation and Reporting of the American Recovery and Reinvestment Act of
         2009: Government Controls Over Selected Near Term Energy-Efficient
         Technologies Projects Were Generally Effective tReport No. D-2012-048)

The DoD Office of Inspector General is performing audits of DoD's implementation of Public
Law 111-5, "American Recovery and Reinvestment Act of 2009," February 17,2009 (Recovery
Act). We non-statistically selected six Near Term Energy-Efficient Technologies (NTEET)
program projects to review, one from each of the Military Departments, one DoD-Wide project,
and two Small Business Innovation Research (SBIR) projects. The six projects, totaling
approximately $42 million in Recovery Act funding, were:

   •   H~gh-Temperature Silicon Carbide Semiconductors - Army - $12,139,673
   •   F-18 Energy-Efficiency Improvements - Navy - $15,000,000
   •   Hybrid Unmanned Aerial Vehicle (UAV) Renewable Propulsion System - Air Force-
       $4,859,929
   • . Fuel-Efficient Ground Vehicle Demonstrator - DoD-Wide - $8,748,000
   • Advanced Manufacturing Techniques for Large Area Solid-Oxide Fuel Cells and Other
       Energy Applications - SBIR - $622,896
   • Foil-Bearing Centrifugal Cathode Air Blower - SBIR - $480,000

Audit Objective

The primary objective of this audit was to determine whether DoD and its Components were
implementing the Recovery Act. Specifically, for the six selected NTEET projects, we evaluated
the effectiveness of Government controls over contractor performance, recipient reporting, and
contracts awarded to qualified small businesses. The Attachment includes a description of the
six NTEET projects reviewed and a summary of our review of applicable controls for each
project.

Government controls for the NTEET projects for contractor performance, recipient reporting,
and contracts awarded to small businesses were generally effective. Generally, contracting
officials for the six selected NTEET projects monitored contractor performance and recipient
reporting in accordance with the Recovery Act and Office of Management and Budget (OMB)
guidance. Contracting officials identified some deficiencies in the contractor's recipient
reporting and took corrective action to improve transparency by publishing information on the
appropriate public Government Web sites. Army and Air Force contracting officials ensured that
small businesses self-certified in accordance with the appropriate laws and regulations.

Controls Over Contractor Performance Were Generally Effective
Government controls over NTEET project contractor performance were generally effective in the
project oversight of Quality Assurance Surveillance Plans (QASPs), contractor recipient reports,
contractor-submitted invoices, and the inclusion of the contract clause for Government
inspection. Three of the six projects were still in process as of June 30, 2011. In addition, one of
the three projects, the Navy’s F-18 Energy-Efficiency Improvements, had exceeded timelines for
project completion. The Table provides a summary of NTEET project outcomes and the
compliance with the Recovery Act, FAR and OMB guidance.

                                    Table. NTEET Project Outcomes
  Project            Project          Project        Compliant With Recovery Act, FAR,
 Description        Completed       Completed                and OMB Guidance
                                       Within
                                      Recovery         QASP         Contractor      Invoice          Small
                                         Act                         Recipient     Oversight       Business
                                      Allocated                      Reports                      Certification
                                        Costs

High-                Ongoing*         Ongoing*           Yes            Yes            Yes              N/A
Temperature
Silicon Carbide
Semiconductors

F-18 Energy-        Ongoing**             No             No             Yes            Yes              N/A
Efficiency
Improvements

Hybrid UAV              Yes              Yes             N/A            Yes            Yes              N/A
Renewable
Propulsion
System

Fuel-Efficient       Ongoing*         Ongoing*           Yes            Yes            Yes              Yes
Ground Vehicle
Demonstrator

Advanced                Yes              Yes             N/A            Yes            Yes              Yes
Manufacturing
Techniques

Foil-Bearing            Yes              Yes             N/A            Yes            Yes              Yes
Centrifugal

*The project is on schedule, within budget, and will be completed in FY 2012.

**The project was delayed and all Recovery Act allocated funds exhausted. The contractor agreed to complete the

project at no additional cost to the government in FY 2012.


                                                        2

U.S. Army Contracting Command-Warren Controls Over Contractor Performance
Were Effective
One example of effective Government controls over contractor performance was the High-
Temperature Silicon Carbide Semiconductors project managed by the U.S. Army Tank and
Automotive Research and Development Engineering Center (TARDEC). The objectives of the
project were to demonstrate the feasibility of silicon carbide power electronics and to overcome
the main barriers to commercial development of this technology. Silicon carbide components are
smaller, more efficient, and can operate at higher temperatures. The U.S. Army Contracting
Command (ACC) officials awarded three contracts for this project and prepared an adequate
QASP for each contract that described the work to be done and the methods of surveillance to
monitor work performed. The ACC used TARDEC electrical engineers with technical expertise
in the contracts’ requirements to act as contracting officer’s representatives (CORs). One
method of COR surveillance was reviewing the vendor’s quarterly technical reports. The
technical reports identified potential problems and associated mitigation strategies. Another
method of surveillance was reviewing contractor expenditures for the major cost elements, such
as direct labor, subcontractor costs, and overhead. In addition to analyzing the progress reports,
the CORs attended quarterly status meetings with the vendors to discuss issues relating to
contract performance. Quarterly status meeting minutes indicated that the CORs provided
guidance to the contractor. ACC officials also reviewed Wide Area Workflow invoices,
expenditure reports, and vouchers. These methods of surveillance were continuous and
thorough. The Army controls over performance were effective.


The Navy Needed to Improve Contractor Oversight for a NTEET Project
For the F-18 Energy-Efficiency Improvements project, the Navy took steps to provide adequate
surveillance, but technical difficulties still led to delays. The primary objective of the project
was to develop and test technology to improve the fuel efficiency of the F-414 engine used in the
F/A-18 E/F/G models.

The U.S. Navy Naval Air Systems Command (NAVAIR) contracting officials awarded one
contract and a modification to General Electric (GE) for this project. Though NAVAIR officials
were not required to prepare a QASP for the project, the command used other means to perform
contractor surveillance and oversight. The NAVAIR contract with GE included Federal
Acquisition Regulation Clause (FAR) 52.246-9, “Inspection of Research and Development,” that
allowed for visits to the place of performance and gave the Government the authority to inspect
and evaluate the work performed. After a 12-month delay in the delivery schedule, NAVAIR
officials subsequently placed a technical representative at GE facilities from August through
October 2010 to conduct contract surveillance during the engine building and assembly phase.
NAVAIR officials stated that NAVAIR headquarters officials and GE held weekly conferences
to discuss the progress of the engine assembly. GE also provided program updates and status on
testing, findings, and recommendations to NAVAIR officials. In addition, the NAVAIR on-site
technical representative held daily meetings with GE to obtain status reports and discuss plans to
mitigate further delays in the delivery schedule. As of November 2011, a NAVAIR official
stated that all required tests were completed and preliminary data results were provided to
NAVAIR on October 31, 2011. In addition, GE reported in the fourth quarter 2011 recipient
report, that they were waiting for NAVAIR to approve the test reports and the contract would
close the first quarter of 2012.



                                                3
The Defense Contract Audit Agency (DCAA) memorandum, “Authorization for Direct
Submission of Public Vouchers,” February 9, 1998, permitted GE to directly submit public
vouchers to the Defense Finance and Accounting Services (DFAS). DCAA will review GE’s
procedures for preparing public vouchers as part of its ongoing surveillance of the contractor’s
billing system. GE submitted 28 public vouchers, valued at $15 million, between May 8, 2009,
and November 5, 2010, to bill on cost-reimbursement contract action N00019-09-G-0009,
delivery order 0005. According to a Defense Contract Management Agency (DCMA) official,
surveillance spreadsheets were updated each time DCMA became aware of a contract
modification issued by the contracting activity and/or a public voucher was submitted to DFAS
for payment. Furthermore, the spreadsheet allowed the administrative contracting officer to
ensure compliance with limitation of cost/funds by tracking funding and payments as well as cost
versus fee expenditures. According to DCAA, the cost reimbursable provisional payments are
subject to audit at a later date.

In late 2010, NAVAIR reimbursed GE for its final billing of obligated Recovery Act funds
allocated under the contract to complete the new engine but GE had not met the original
contract-required delivery dates for associated engine test data. According to NAVAIR
contracting officials, this late delivery was due to increased technical risk regarding engine
ceramic blade technology efforts that were not understood at contract inception because this was
the first time the effort had been attempted. Continuing the project would have required
additional Recovery Act or non-Recovery Act developmental funds that were not designated for
the effort. Therefore, the effort would have to be either funded again as a NAVAIR special
project or made a part of the Navy’s regular budget in a later budget cycle. In either case,
progress on the project would have stopped until a new appropriation was made available for the
special project. Because technical development was nearly complete, NAVAIR and GE
negotiated a contract modification on January 31, 2011, to change the order from a cost-plus-fix-
fee basis to a firm-fixed-price basis allowing GE to complete the work within the established
Recovery Act contract price. It also allowed the Navy to receive the required data and allowed
GE to potentially demonstrate the successful application of the ceramic blade technology for
future military and commercial use.

Controls Over Recipient Reporting Were Generally Effective
Government controls over NTEET project contractor recipient reporting were generally effective
for reviewing information on the Government Web sites. However, a few minor deficiencies
occurred for project description and subcontractor reporting in several recipient reports.

One example of effective recipient reporting controls for reviewing information on Government
Web sites is the DoD-Wide Fuel-Efficient Ground Vehicle Demonstrator project managed by
TARDEC. A TARDEC project official reviewed and analyzed the recipient reports submitted by
the contractor and posted on www.FederalReporting.gov. We compared the information on the
Web site for the total dollar value of the project, project status, and general purpose of the award,
nature of activities, and location of work being performed to the information documented in the
contracting file. However, according to the TARDEC project official, he detected some errors in
the recipient reporting. For example, the contractor’s recipient report did not accurately state
contractor’s fund source code. TARDEC project officials notified the contractor about
discrepancy in the code. Also, the contractor did not include a subcontractor’s information until
the first quarter 2011 recipient report although the contract was awarded in the first quarter of


                                                 4
2010. The remaining three reports for 2010 also did not include that subcontractor’s information
as they should have.
Two other examples of effective recipient reporting were the Advanced Manufacturing
Techniques for Large Area Solid-Oxide Fuel Cells and Other Energy Applications project and
the Foil-Bearing Centrifugal Cathode Air Blower project at the Air Force Research Laboratory
(AFRL). In both cases, AFRL implemented effective procedures to validate the accuracy of
contractor-reported information.

The contractor submitted the required recipient reports for the Advanced Manufacturing
Techniques for Large Area Solid-Oxide Fuel Cells and Other Energy Applications project on
www.FederalReporting.gov for the fourth quarter of 2009 and all quarters in 2010 and submitted
a final report on January 7, 2011. The Foil-Bearing Centrifugal Cathode Air Blower contractor
also submitted the required quarterly recipient reports that were posted on the Government Web
site for the fourth quarter of 2009 and the first two quarters of 2010 and submitted a final report
on July 15, 2010. After reviewing the Web site recipient reports and the AFRL contract files, we
concluded the recipient-reported information for both projects accurately reflected the project
description, cost, status, and scope of work being performed. The report narratives for both
projects included extensive and informative descriptions, including a complete description of the
overall project and expected outcomes.

Controls Over Contracts Awarded To Qualified Small Businesses
Were Generally Effective
Government controls for validating the certifications for the three NTEET project contracts
awarded to small businesses were generally effective in making awards to qualified Section 8(a)
and other small business contractors. NTEET project contracting officials made awards both
competitively and noncompetitively to various types of small businesses. Small business
participation included the SBIR program and the Section 8(a) Business Development program.
The Small Business Administration (SBA) maintains overall Federal policy for SBIR, directs 11
Federal agencies’ implementation of SBIR, reviews their progress, and reports annually to
Congress on the program’s operation. As required by public law, the SBA is responsible for
ensuring that the 11 Federal agencies reserve a portion of their overall research and development
extramural budget for award to small businesses.

The SBIR contractual process is structured into the following three phases:

        Phase I: initial determination of technical feasibility,
        Phase II: prototype development, and
        Phase III: commercialization of the technology in either the military or private-sector
        markets.


 Small businesses self-certify their status with the Small Business Administration (SBA), Central Contractor
Registration, and Online Representations and Certification Application. To qualify as a small business, the
company must meet the SBA-established size standards for the North American Industry Classification System for
which they plan to claim small business status. These standards are either average annual revenues (for the last 3
years) or number of employees, and this information must be applied to the company as a whole, not for a specific
subsidiary. Small businesses must also update their status every year.

                                                         5
The purpose of the Section 8(a) Business Development program is to promote the business
development of small business concerns owned and controlled by socially and economically
disadvantaged individuals so that such concerns can compete on an equal basis in the American
economy. Army and Air Force contracting officers awarded three of the six projects in our
sample to small businesses. They awarded the Fuel-Efficient Ground Vehicle Demonstrator
project to a Section 8(a) contractor and awarded the Advanced Manufacturing Techniques for
Large Area Solid-Oxide Fuel Cells and Other Energy Applications and the Foil-Bearing
Centrifugal Cathode Air Blower projects as part of the SBIR program.

An example of contracting officials properly validating the contractors’ SBIR status is the Foil-
Bearing Centrifugal Cathode Air Blower project. AFRL awarded this SBIR Phase II contract as
the result of the successful completion of the small businesses’ Phase I contract. The Phase I
contract was competitively awarded based on the scientific and technical merit of the proposal
submitted that addressed the goals and objectives described in the solicitation of topics from the
Air Force. This SBIR contractor was required by law to meet the Federal Government’s
definition of a small business; even though, the contractor could self-certify the business status
when submitting the proposal for this topic from the Air Force FY 2008 solicitation lists. AFRL
contracting officials reviewed and obtained copies of the reports from the Online Registration
and Certification Application (OCRA) and verified the North American Industry Classification
System (NAICS) code as part of the contracting file. As required, the contractor used various
NAICS codes for machine shops. The contractor also certified that the business had 50 or fewer
employees and had average annual gross revenues of $5 million to $10 million, which is within
the criteria for small businesses. The contractor was a qualified small business under the SBIR
definition, and the Air Force controls were sufficient.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a system of internal controls that
provides reasonable assurance about the effectiveness of the controls. We did not identify any
internal control weaknesses, as defined by DoD Instruction 5010.40, regarding the ACC,
TARDEC, NAVAIR, and AFRL compliance with Government controls over contractor
performance, recipient reporting, and contracts awarded to qualified small businesses.


Audit Standards
We conducted this performance audit from January 2011 through December 2011 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Audit Scope and Methodology
We visited the ACC and TARDEC at U.S. Army Tank-Automotive and Armaments Life Cycle
Management Command, Warren, Michigan; NAVAIR, Patuxent River, Maryland; and AFRL-
Wright Patterson Air Force Base, Dayton, Ohio, to review the six selected NTEET projects. We
                                                6
interviewed program personnel and contracting officials at each location. We met with
contracting and program officials for the selected NTEET projects and reviewed the contracts
and documents in the contracting file to determine what tools and techniques were used to
monitor contract performance. We reviewed contracting and financial documentation from
August 2009 to March 2011. We used this supporting documentation to determine whether the
Government controls over contractor performance and recipient reporting met the OMB and
DoD Recovery Act implementation and transparency requirements.

The NTEET program consists of energy research projects by the Military Services to increase
fuel efficiency or advance new technologies for alternative energy sources. We non-statistically
selected six NTEET program projects to review to determine whether DoD efforts complied with
Recovery Act requirements, OMB guidance, the FAR, and DoD implementing guidance. Nine
Recovery Act contracting actions valued at approximately $42 million were included in the six
projects. Our selection sample was based on reviewing projects with a prototype or
demonstrator as a deliverable and represented projects from each Military Service, including
SBIR.

We reviewed controls that related to both Recovery Act monitoring and general research and
development project oversight, which included:

       Government QASPs,
       technical reports from the contractor,
       status meetings between the contractor and the Government,
       contractor-submitted invoices (to evaluate accuracy and identify inconsistencies), and
       the contract clause for Government inspection.

To evaluate controls over Recovery Act recipient reporting, we reviewed:

       recipient (contractor) reports on www.recovery.gov and www.FederalReporting.gov for
       the quarters ending September 30, 2010, and December 30, 2010, for accuracy and
       completeness and
       procedures for Government validation of contractor-reported information.

To evaluate controls over contracts awarded to small businesses, we reviewed:

       original contract and options awarded to the contract;
       ORCAs for the number of employees and amount of annual revenue of the small business
       entity receiving the award;
       NAICS codes; and
       entries posted on the Federal Procurement Data System (FPDS) for the business category,
       product, and small business information.

We reviewed the Recovery Act, the FAR, various White House memoranda, and various OMB
memoranda. We determined whether QASPs were used and the methods of surveillance. We
reviewed the contractor’s technical reports and minutes of status meetings between the contractor
and the Government to resolve project issues. Specifically, we reviewed selected payment
requests to determine whether the request matched the work performed and reviewed the
contracts to see if they included the FAR clause 52.246-9, which gives the Government the right
to visit the place of performance for inspection.
                                               7
We rev iewed selected recipient reports posted by contractors on www.FederaIRcporting.gov and
on www.recovery.gov for the third and fo urth quarters of calendar year 20 I 0 (submitted in
October 20 I 0 and January 20 I I) and compared the information with contract files and the FPDS.
For some projects with reporting deficiencies, we reviewed the recipient report for the first
quarter of20 I I (submitted in April 20 I I). We also determined whether contracting officia ls
were taking corrective action against contractors with recipient reporting deficiencies.

We determined whether the contracting personnel properly validated contractor Section 8(a)
status by identifying small business Section 8(a) actions at each site From the FPDS. We
reviewed contract files to determ ine whether contracting officials reviewed each small business
status by obtaining reports from the O RCA Web site and the NAICS. We also met with
contracting officia ls to determine their procedures for va lidati ng contractor Section 8(a) business
status.

Use of Computer-Processed Data

We used computer-processed data to perform this audit. Spec ifically, we used project data posted
on the Recovery Act Web site www.recovery.gov in meeti ng our audit objecti ves. We tested the
accuracy of the data by comparing the project data reported on the Recovery Web site with
documents in the contract file. Our audit focused on the reporting of contract actions on specific
Recovery Act proj ects. From these procedu res, we concluded that the data were sufficiently
reliable For our audit purposes .

Prior Audit Coverage

The Government Accountability Office, the 000 Inspector General, and the Military
Departments have issued reports and memoranda discuss ing 000 projects fund ed by the
Recovery Act. You can access unrestricted reports at http://www.recoyery.goy/accountability.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077). If yo u desire, we will prov ide a formal briefing on the results.




                                       ~I     ~Ii~h. {k:::r
                                               Assistant Inspector General
                                               Acquisition and Contract Management
Attachment:
As stated




                                                  8
        Summary of NTEET Projects and Government Controls
1. High-Temperature Silicon Carbide Semiconductors-Army

   Contract Number          Contractor        Contracting Activity     Contract Action Value
     W56HZV-10-C-      Science Applications   U.S. Army Contracting
          0113             International       Command-Warren,               $6,793,410
                           Corporation              Michigan
     W56HZV-10-C-       Teledyne Scientific   U.S. Army Contracting
         0114            & Imaging, LLC        Command-Warren,               $2,272,394
                                                    Michigan
     W56HZV-10-C-        RCT System, Inc.     U.S. Army Contracting
         0115                                  Command-Warren,               $3,073,869
                                                    Michigan


   Project Objective and Background. The total amount awarded for the three Recovery Act
   contracts was $12,139,673. This project is for the development of efficient, high-
   temperature silicon carbide power electronics for military vehicles using hybrid electric
   mobility and power generation systems. Recovery Act contractors have completed the
   preliminary designs for Silicon Carbide Semiconductors. As of July 2011, the work on
   the largest contract was more than 50 percent complete. For the two other contracts, one
   contractor reported less than 50 percent of the work was complete, and the other
   contractor reported more the 50 percent of the work was completed. However, the 2-year
   program remains on schedule for February 2012 completion.

   Contractor Performance Controls. Government controls over contractor performance for
   the project were generally effective.

   Recipient Reporting Controls. ACC procedures were effective in managing the
   contractor’s recipient reporting information published on www.recovery.gov. ACC
   appointed TARDEC project officials as the CORs, and ACC assigned the responsibility
   of reviewing and analyzing contractor-submitted reports to the CORs. The CORs
   communicated regularly with the contractors and provided assistance to clarify
   instructions about the reporting requirements. The total dollar value for the project,
   project status, general purpose of the award, and location of work performed was
   supported by documents in the contracting file for two of the three contractors. However,
   the CORs identified a deficiency in the description of the project and directed the
   contractor to provide more information on the purpose of the award and project activity.
   The corrective action taken by ACC officials was evident in the subsequent report (for
   the first quarter of 2011), which contained a more detailed description of the purpose of
   the award and the project activities. ACC controls over recipient reporting were
   effective.

   Small Business Controls. Not applicable as the award was made to a large business.




                                                                                Attachment
                                                                                Page 1 of 7
2. F-18 Energy-Efficiency Improvement-Navy

   Contract Number         Contractor          Contracting Activity     Contract Action Value
   N00019-09-G-0009       General Electric      Naval Air Systems
    (task order 0005)       Company          Command, Patuxent River,        $7,500,000
                                                    Maryland
   N00019-09-G-0009-      General Electric      Naval Air Systems
       0005-01              Company          Command, Patuxent River,        $7,500,000
                                                   Maryland


   Project Objective and Background. The primary objective of the project is to develop
   and test technology to improve the fuel efficiency of the F-414 engine used in the F/A-18
   E/F/G models. Specifically, the project objectives were to:

          demonstrate technologies capable of reducing fuel consumption of the F-414
          engine through a single-engine test build,
          quantify the magnitude of actually demonstrated and analytically predicted fuel
          quantity savings based on test data acquired using those technologies individually
          and as a full-technology suite,
          provide a Fleet incorporation scheme of the technologies, and
          provide a cost estimate for incorporating the technologies for maximum fuel
          savings in the shortest amount of time.

   NAVAIR issued two cost-plus-fixed-fee contract actions to GE, N00019-09-G-0009
   (delivery order 0005) and N00019-09-G-0009 (delivery order 0005 modification 01),
   valued at $7,500,000 each, for a total of $15 million. As of July 2011, GE reported to
   NAVAIR that a major engine test would be completed by August 31, 2011, and the
   demonstrator engine would be completed by October 2011, resulting in a project status of
   50 percent or more complete with a 12-month delay in the overall schedule.

   Contractor Performance Controls. Government controls over contractor performance for
   the project were generally effective.

   Recipient Reporting Controls. NAVAIR contracting officials effectively reviewed and
   validated contractor quarterly recipient reports for the third and fourth quarters of
   calendar year 2010 posted on www.FederalReporting.gov and www.recovery.gov. The
   recipient’s reports contained all information required by OMB. Recipient’s reports were
   submitted on time as required by OMB guidance. Contractor reports included a
   description of the overall purpose and expected outcomes and complied with OMB
   requirements by providing narrative descriptions that were sufficiently clear for the
   general public to understand. NAVAIR officials used “Guidance for Reviewing
   Contractor Reports,” December 16, 2009, provided by the Director, Defense Procurement
   and Acquisition Policy to review the recipient reports.

   Small Business Controls. Not applicable as the award was made to a large business.



                                                                                 Attachment
                                                                                 Page 2 of 7
3. Hybrid Unmanned Aerial Vehicle Renewable Propulsion System-Air Force

     Contract Number         Contractor          Contracting Activity     Contract Action Value
    FA8650-08-C-2935-         Northrop            Air Force Research
         P00003           Grumman Systems        Laboratory, Wright-
                                                                                $4,859,929
                             Corporation        Patterson, AFB Dayton,
                                                         Ohio


   Project Objective and Background. The project objective is to develop a renewable,
   long-endurance, unmanned aerial vehicle using four-junction photovoltaic power to
   renew a fuel-cell-based power system and highly efficient electric propulsion. AFRL
   modified a previously competed cost-plus-fixed-fee contract on July 17, 2009, valued at
   $4,859,929, to incorporate Recovery Act work. As of August 2011, this project was
   completed.

   Contractor Performance Controls. Government controls over contractor performance for
   the project were generally effective. AFRL project engineers received contractor bi-
   monthly technical status reports to summarize each task performed, the progression of the
   performance (including milestones), and task status for the reporting period. AFRL
   contracting officials stated that Air Force Instruction 63-101, “Acquisition and
   Sustainment Life Cycle Management,” Chapter 4, “Acquisition of Services,” exempted
   research and development projects from requiring the use of a QASP. However, a project
   engineer was assigned as a technical monitor to perform inspections on contractor
   performance. AFRL contracting officials stated that to ensure accuracy, they reviewed
   contractor fund status reports and compared the reports to the actual funds expended.
   AFRL contracting officials did not include FAR clause 52.246-9 in the contract for this
   project from July 2009 through March 2011. On March 31, 2011, the AFRL contracting
   officer issued a unilateral modification to include the FAR clause. According to the
   AFRL contracting official, the absence of the clause did not result in any adverse effect
   as AFRL personnel have never been denied access to the contractor’s facilities.

   According to the AFRL officials, DCMA approved the submission of vouchers from the
   prime contractor directly to DFAS for payment. The contractor submits vouchers to
   DFAS on a monthly basis. Northrop Grumman Systems Corporation submitted 19 public
   vouchers, valued at more than $4.5 million, between August 31, 2009, and February
   28, 2011, on cost-plus-fixed-fee contract action FA8650-08-C-2935-P00003. The AFRL
   official provided a summary report with detailed transactions that recorded cost, contract
   number, report date, and the balance remaining after each transaction. We compared the
   summary report to the voucher amount paid each month by DFAS and we were able to
   clearly reconcile the voucher amounts to the quarterly reports. According to AFRL
   officials, all cost-plus-fixed-fee contracts are subject to an incurred cost audit of all
   claimed costs after the conclusion of the performance and that all vouchers are
   considered “provisional payments” until after negotiations between the contractor and the
   DCMA administrative contract officer are complete. AFRL officials also stated that all
   claimed costs on this contract are subject to an audit to establish the final costs due to the
   contractor.


                                                                                    Attachment
                                                                                    Page 3 of 7
   Recipient Reporting Controls. AFRL contracting officials effectively reviewed and
   validated contractor quarterly recipient reports on www.recovery.gov. The quarterly
   reports were generally clear, understandable, and complete and described the purpose of
   the award, activities that were performed, and the locations of the prime contractor and
   subcontractors. The reports also included cumulative costs and the status of project
   outcome for each quarter including jobs created. The last quarterly report was dated
   October 6, 2011.

   Small Business Controls. Not applicable as the award was made to a large business.

4. Fuel-Efficient Ground Vehicle Demonstrator-DoD-Wide

    Contract Number          Contractor       Contracting Activity      Contract Action Value
   W56HZV-06-C-0406        World Technical    U.S. Army Contracting
        P00042              Services, Inc.     Command-Warren,               $8,748,000
                                                    Michigan


   Project Objective and Background. The project objective is to integrate the system-level
   concepts into a demonstrator that maximizes fuel economy improvement for the next
   generation of Army ground vehicles. The specific project goal is to design and fabricate
   one full-scale ground vehicle system demonstrator to display fuel efficient concepts while
   maintaining tactical vehicle capability. ACC awarded an option for $8.75 million in
   August 2009 under the original contract for this project. The contractor has entered the
   build phase of the project, which includes purchasing, fabrication, and assembly. These
   activities are occurring at the same time and this phase is expected to conclude by the end
   of the fourth quarter of 2011. As of July 2011, this project was more than 50 percent
   complete.

   Contractor Performance Controls. Government controls over contractor performance for
   the project were generally effective. ACC contracting officials awarded an option under
   an existing contract for the project and appointed TARDEC project officials as the CORs.
   Also, the existing QASP continued for this option. Additional surveillance included
   contractor-submitted monthly progress reports to the CORs, and the CORs made weekly
   site visits to perform inspections on contractor performance. TARDEC project officials
   stated that the project manager and business manager reviewed and approved the
   contractor vouchers for payment.

   Recipient Reporting Controls. Government controls over recipient reporting for the
   project were generally effective.

   Small Business Controls. Government controls over contracts awarded for the project to
   this Small Business were generally effective.




                                                                                  Attachment
                                                                                  Page 4 of 7
5. Advanced Manufacturing Techniques for Large Area Solid-Oxide Fuel Cells and
   Other Energy Applications-SBIR

    Contract Number         Contractor        Contracting Activity     Contract Action Value
    FA8650-09-C-2016       Optomec, Inc.       Air Force Research
                                              Laboratory, Wright-
                                                                             $622,896
                                             Patterson, AFB Dayton,
                                                      Ohio


   Project Objective and Background. The objective of the project is to build on prior
   successful work conducted under the SBIR Phase II Program that showed unique
   capabilities and advantages of using Aerosol Jet deposition technology to fabricate high-
   performance solid-oxide fuel cells. Specifically, this project will focus on the
   development of enhancements to the Aerosol Jet system and hardware necessary for cost-
   effective commercial production of solid-oxide fuel cells. The supplemental project
   consists of the following five tasks:

          Large-Area Printing Enhancements,
          Ancillary Hardware Enhancements
          Production Platform Design Concepts,
          Cell Characterization/Analysis and Ink Optimization, and.
          Application Development.
   As of January 2011, the contractor completed approximately 100 percent of the project
   tasks funded by Recovery Act and expended all Recovery Act funds.

   Contractor Performance Controls. Government controls over contractor performance for
   the project were generally effective. AFRL officials monitored contractor performance
   through DCMA project engineers that were appointed as the technical representatives.
   AFRL contracting officials stated that Air Force Instruction 63-101 exempted research
   and development projects from requiring the use of a QASP. The technical
   representatives were responsible for monitoring the costs, technical, and schedule
   performance and informing the contracting officer of any problems. In addition, the
   contracting officials obtained and reviewed the public payment vouchers in the Wide
   Area Workflow that were submitted by the contractor and paid by DFAS. The contract
   contained the FAR clause 52.246-9. As of December 31, 2010, the AFRL contractor
   completed the tasks funded by Recovery Act and expended all the funds. The controls
   over contractor performance were adequate.

   Recipient Reporting Controls. Government controls over recipient reporting for the
   project were generally effective.

   Small Business Controls. Government controls over awarded for the project to this Small
   Business were generally effective.




                                                                                 Attachment
                                                                                 Page 5 of 7
6. Foil-Bearing Centrifugal Cathode Air Blower-SBIR

    Contract Number          Contractor         Contracting Activity     Contract Action Value
    FA8650-09-C-2043       R & D Dynamics        Air Force Research
                             Corporation        Laboratory, Wright-
                                                                               $480,000
                                               Patterson, AFB Dayton,
                                                        Ohio


   Project Objective and Background. The project’s objective is to reduce the size and
   weight of solid-oxide fuel cell power systems for unmanned aerial vehicle applications to
   make future unmanned aerial vehicle lighter and more fuel-efficient. The technology will
   further enable the Air Force to move toward more electric aircraft. In addition, the
   technology will have an additional benefit to land- and sea-based vehicles use of solid-
   oxide fuel cell power systems. As of July 2010, the contractor completed less than
   50 percent of the task. The Air Force obligated, and the contractor expended, all
   Recovery Act funds for the project. However, the contract work is continuing with non-
   Recovery Act Air Force funding.

   Contractor Performance Controls. Government controls over contractor performance for
   the project were generally effective. AFRL officials monitored contractor performance
   through the use of quarterly status reports, DCAA audits, and e-mails. AFRL contracting
   officials stated that Air Force Instruction 63-101 exempted research and development
   projects from requiring the use of a QASP. The contracting officials reviewed the
   quarterly status reports, which contained the technical information and status of the
   project. In addition, the contracting officials obtained and reviewed the public payment
   vouchers in the Wide Area Workflow that were submitted by the contractor and paid by
   DFAS. The contract contained the FAR clause 52.246-9. As of September 30, 2010,
   AFRL obligated and expended all Recovery Act funds for this SBIR Phase II project, and
   the contractor posted the final report on www.FederalReporting.gov. Three prototype
   cathode air blowers were produced with Recovery Act funds that met Air Force
   specifications and were designed, manufactured, tested, and delivered to the United
   Technologies Research Center. The Government controls over contractor performance
   were adequate.

   Recipient Reporting Controls. Government controls over recipient reporting for the
   project were generally effective.

   Small Business Controls. Government controls over SBIR Small Business for the project
   were generally effective. AFRL awarded this SBIR Phase II contract as a result of the
   successful completion the small business’s Phase I contract. The Phase I contract was
   competitively awarded based on the scientific and technical merit of the proposal
   submitted that addressed the goals and objectives described in the solicitation of topics
   from the Air Force. This SBIR contractor self-certified the business status with the initial
   application for the SBIR program and again when submitting the proposal for this topic
   from the Air Force FY 2008 solicitation lists. AFRL contracting officials obtained copies
   of the reports from the ORCA Web site and verified the NAICS codes as part of the
   contracting file. The contractor used the NAICS code 333415 for air-conditioning and

                                                                                   Attachment
                                                                                   Page 6 of 7
warm air heating equipment. The contractor certified that the business had 50 or fewer
employees and had average annual gross revenues of $3.5 million to $5 million.




                                                                             Attachment
                                                                             Page 7 of 7
